TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improvements in Mainframe Computer
                     Storage Management Practices and
                  Reporting Are Needed to Promote Effective
                  and Efficient Utilization of Disk Resources



                                              May 2006

                              Reference Number: 2006-20-056




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 10, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Improvements in Mainframe Computer Storage
                                Management Practices and Reporting Are Needed to Promote Effective
                                and Efficient Utilization of Disk Resources (Audit # 200520024)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) mainframe
 computer storage management. The overall objective of this review was to assess the
 effectiveness and efficiency of the IRS’ mainframe computer storage management practices.

 Synopsis
 The IRS requires a large and complex computer environment to process and store taxpayer,
 financial, and administrative data. A significant portion of the computer processing workload is
 performed by mainframe computer systems. These systems are managed by the Enterprise
 Computing Center1 organization that is part of the Modernization and Information Technology
 Services (MITS) Enterprise Operations organization. Between October 2001 and
 September 2005, the IRS’ mainframe computer disk storage capacity more than doubled.
 Effective October 2005, the Enterprise Operations organization, including the Enterprise
 Computing Center, restructured operations based on a Competency Based Organization, giving
 management the opportunity to create a uniform disk storage operating environment with
 standardized management practices. However, our review identified improvements in
 management practices and reporting that are needed to promote effective and efficient disk
 storage utilization.
 Current disk storage capacity exceeds needs, but additional capacity is being purchased. In our
 opinion, additional storage capacity continues to be purchased based on storage allocation

 1
     See Appendix VII for a Glossary of Terms.
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources


instead of actual usage, as evidenced by the fact that actual storage usage information is not
included in storage purchase justifications. Based on the storage usage rate, the $626,866 spent
to purchase 21 terabytes of additional disk storage in August 2005 represents an inefficient use
of resources, and the $1,423,140 planned expense to lease 38.4 terabytes of additional disk
storage beginning in Fiscal Year 2006 represents funds that could be put to better use.
Purchases of disk storage capacity also continue because Enterprise Operations organization
management allows project owners to determine how
the storage capacity is to be allocated and how long        The IRS purchased additional disk
the data will remain on the disks. In addition, disk         storage capacity although only
storage usage information is not regularly shared with     41 percent to 69 percent of existing
                                                             disk storage capacity was being
the project owners, and Enterprise Computing Center         used. Procedures for monitoring
management has been unsuccessful in obtaining from         actual storage usage could improve
project owners approvals that would allow more               overall utilization, postpone the
effective management of storage capacity.                 purchasing   of unnecessary capacity,
                                                            and save resources for other needs.
Disk data retention procedures for removing unused
data are not standardized and consistently implemented. Our analysis of 18 judgmentally
selected applications that run on the IBM - Master File, IBM - Other, and Unisys systems
showed inconsistencies in data retention practices for the same file types. In addition, the
applications running on IRS mainframe computers include batch processes and, as a result,
receive and process data in cycles (e.g., daily, weekly, monthly) that the Computing Centers are
storing on disk. The storage administrators manage the disk storage by the number of cycles
kept on disk for each file. We believe storing data on disk after the cycles are processed is an
inefficient use of disk storage.
File transfer procedures require duplicate disk storage capacity. The IRS’ target Enterprise
Architecture requires storage virtualization, which is the consolidation of multiple network
storage devices into what appears to be a single storage unit (i.e., a virtual storage pool).
However, the IRS’ mainframe disk storage devices are each connected to a mainframe computer
system and are used by only that system. Consequently, files created and stored on one system
must be transferred (i.e., copied) to another system for additional processing, tax account
research, or other use, and storage capacity for the files must be provided on the originating and
receiving storage devices. The Associate Chief Information Officer (CIO), Enterprise
Operations, advised virtualization is something the IRS wants to implement and she has tried for
several years to obtain funding. However, funding is not available and virtualization across
systems cannot be implemented.
In Fiscal Year 2005, the Capacity Management Branch published reports that included high-level
disk storage capacity and assignment charts and future capacity requirements based on
assignments. However, the reports did not analyze disk storage usage and base future capacity
requirements on the historic usage trends because IRS management gave greater priority to
assessing computer processor needs. In addition, storage usage assessment responsibilities were
                                                                                                   2
                    Improvements in Mainframe Computer Storage Management
                   Practices and Reporting Are Needed to Promote Effective and
                              Efficient Utilization of Disk Resources


moved to another organizational unit. We also found inconsistencies in Enterprise Computing
Center disk storage usage report frequencies, measurement units, and terminologies that have not
been reconciled to provide a corporate view of disk storage usage. The incomplete, untimely,
and inconsistent disk storage usage and capacity planning reports resulted in MITS organization
management not having corporate disk usage information to monitor and ensure resources were
used effectively.

Recommendations
We recommended the CIO ensure the Enterprise Operations organization develops and
implements standardized procedures to operate and manage disk storage capacity as a corporate
asset, includes storage usage information in disk storage purchase justifications, removes unused
copies of files and database records from disk storage, conducts annual capacity planning
assessments including the assessment of disk storage usage, and develops standardized storage
allocation and usage reports that are shared with MITS organization management and project
owners. We also recommended the CIO ensure the Business Systems Development organization
effectively sets application data retention parameters based on an application’s processing cycles,
to improve mainframe computer disk storage efficiency.

Response
IRS management agreed with all of the recommendations in the report and will implement
several corrective actions, including standardizing procedures to manage disk storage capacity as
a corporate asset and data retention. The storage request process will be amended to include a
capacity analysis to prevent spending on unneeded disk storage. Reports will be generated by
the Enterprise Operations organization and analyzed by the Applications Development
organization2 to confirm current data retention periods or provide new retention periods,
revalidate projected storage need, and/or release storage for use by other projects. The
Enterprise Operations organization will take necessary actions to release any unneeded disk
storage space and will conduct annual capacity planning assessments for all mainframe
computers based on standardized disk storage reports. The reports will be shared with MITS
organization management and project owners.
IRS management disagreed with our cost savings estimates identified in Appendix IV based on
concerns that consideration was not given to all cost-related factors in arriving at the savings
estimates. Management’s complete response to the draft report is included as Appendix VIII.



2
 The Business Systems Development and the Business Systems Modernization organizations are being merged to
create a new Applications Development organization.
                                                                                                             3
                 Improvements in Mainframe Computer Storage Management
                Practices and Reporting Are Needed to Promote Effective and
                           Efficient Utilization of Disk Resources



Office of Audit Comment
IRS management disagreed with the outcome measures included in Appendix IV and stated we
did not include in our calculations all cost-related factors, such as maintenance and/or
environmental factors including power and air conditioning. We discussed the cost savings and
the methodology for calculating the savings with IRS management and revised the audit report
based on management’s comments. In addition, we revised Appendix IV based on
Management’s Response to the draft report to show the consideration of the maintenance cost
savings from the replaced storage.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                4
                         Improvements in Mainframe Computer Storage Management
                        Practices and Reporting Are Needed to Promote Effective and
                                   Efficient Utilization of Disk Resources




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Competency Based Organization Provides Management the
          Opportunity to Create a Uniform Disk Storage Operating Environment
          With Standardized Management Practices ...................................................Page 3
          Current Disk Storage Capacity Exceeds Needs, but Additional Capacity
          Is Being Purchased........................................................................................Page 3
                     Recommendations 1 and 2: ..............................................Page 7

          Management Actions Are Needed to Improve Disk Storage Utilization
          for Mainframe Computers ............................................................................Page 8
                     Recommendation 3:........................................................Page 13

                     Recommendations 4 through 6:.........................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measures...............................................................Page 21
          Appendix V – International Business Machines - Master File Disk
          Storage Capacity Assignment and Usage Metrics ........................................Page 23
          Appendix VI – Unisys Disk Storage Capacity Assignment and Usage
          Metrics ..........................................................................................................Page 25
          Appendix VII – Glossary of Terms ..............................................................Page 26
          Appendix VIII – Management’s Response to the Draft Report ..................Page 28
                              Improvements in Mainframe Computer Storage Management
                             Practices and Reporting Are Needed to Promote Effective and
                                        Efficient Utilization of Disk Resources




                                                                       Background

The Internal Revenue Service (IRS) requires a large and complex computer environment to
process and store taxpayer, financial, and administrative data. The computer environment
includes mainframe,1 mid-range, and end user computer systems, disk and tape storage devices,
and data communication networks. A significant portion of the computer processing workload
is performed by the IRS’ mainframe computer systems managed by the Enterprise Computing
Center organization and located at the Computing Centers in Detroit, Michigan;
Martinsburg, West Virginia; and Memphis, Tennessee. The Enterprise Computing Center
organization is part of the Modernization and Information Technology Services (MITS)
Enterprise Operations organization.
The mainframe computer systems support the administration of the internal revenue laws and
provide services and products to the taxpaying public and the IRS’ business operating divisions.
The systems generate a significant amount of data that are stored on disk and tape storage
devices. In Fiscal Years (FY) 2003 – 2005, the IRS spent $9,006,745 to replace older disk
storage devices and to purchase and lease 56.4 terabytes of additional disk storage capacity.
Between October 2001 and September 2005, the IRS’ mainframe computer disk storage
capacity increased from 79 terabytes to 168.5 terabytes. Figure 1 highlights the significant
growth in mainframe computer disk storage capacity for FYs 2001 – 2005. Figure 2 lists the
International Business Machines (IBM) and Unisys mainframe computer systems and the disk
storage capacity by location.
                             Figure 1: Mainframe Computer Disk Storage Capacity
                          200.0
                                                                                                                                                                         2005
                                                                                                                                                                  2004




                          180.0
                          160.0
                                                                2005
                                                         2004




                                                                                                                                                           2003




                          140.0
              Terabytes




                                                                                                                                                    2002




                          120.0
                                                                                                                                             2001
                                                  2003




                          100.0
                                           2002
                                    2001




                           80.0
                                                                                            2004
                                                                                                   2005
                                                                                     2003




                           60.0
                                                                       2001
                                                                              2002




                           40.0
                                                                                                                               2004
                                                                                                                                      2005
                                                                                                                 2002
                                                                                                                        2003
                                                                                                          2001




                           20.0
                            0.0
                                  IBM (Master File)                       IBM (Other)                               Unisys                                 Total



           Source: Enterprise Computing Center and Capacity Management Branch reports.

1
    See Appendix VII for a Glossary of Terms.
                                                                                                                                                                                Page 1
                   Improvements in Mainframe Computer Storage Management
                  Practices and Reporting Are Needed to Promote Effective and
                             Efficient Utilization of Disk Resources



   Figure 2: Mainframe Computer System Locations and Disk Storage Capacity
                                                                        Capacity (in terabytes)
                         Systems
                                                                                                   Total by
                                                            Detroit   Martinsburg     Memphis
                                                                                                   System
 IBM - Master File                                                           128.4                 128.4
 IBM - Other [includes the Integrated Collection
 System, Automated Collection System, Printer
 Replacement to Integrate New Tools System, Security         15.6              9.4         8.8       33.8
 and Communications System, and Administrative
 systems]
 Unisys - Service Center Replacement System and
                                                                               3.4         2.9        6.3
 Integrated Data Retrieval System
 Total by Location                                           15.6            141.2        11.7      168.5
Source: The IRS’ As-Built Architecture dated October 25, 2005, discussions with Computing Center personnel,
and Enterprise Computing Center and Capacity Management Branch reports.

This review was performed in the Enterprise Operations organization at the IRS
National Headquarters in New Carrollton, Maryland, and in Detroit, Michigan;
Martinsburg, West Virginia; and Memphis, Tennessee, during the period May through
December 2005. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A Glossary of Terms is presented in
Appendix VII.




                                                                                                      Page 2
                    Improvements in Mainframe Computer Storage Management
                   Practices and Reporting Are Needed to Promote Effective and
                              Efficient Utilization of Disk Resources




                                    Results of Review

The Competency Based Organization Provides Management the
Opportunity to Create a Uniform Disk Storage Operating Environment
With Standardized Management Practices
The Clinger-Cohen Act of 19962 states the Chief Information Officer (CIO) is responsible for
promoting the effective and efficient design and operation of all major information resources
management processes for the executive agency. Prior consultant studies and Treasury Inspector
General for Tax Administration reviews3 identified opportunities to improve management
processes and reduce operating costs. The opportunities and declining budgets caused the
Enterprise Operations organization, including the Enterprise Computing Center, to restructure its
operations effective October 2005, based on a Competency Based Organization. The
Competency Based Organization combined similar functions (e.g., storage management) from all
three Computing Centers under a single management chain to eliminate duplication and
standardize work processes.
Prior to implementation of the competency based organizational structure, the three Computing
Centers were independent organizations with mainframe computer storage management roles
and responsibilities distributed among several Computing Center operational and managerial
layers. The restructured organization should result in a single mainframe computer data storage
management operating environment that uses standard policies, practices, and procedures to
manage the three Computing Centers. The elimination of duplication and standardization of
work processes should result in improved operational efficiency.

Current Disk Storage Capacity Exceeds Needs, but Additional
Capacity Is Being Purchased
The Internal Revenue Manual states the Associate CIO, Enterprise Operations, is responsible for
ensuring the effective and efficient use of the IRS automated information processing
environment. Enterprise Computing Center management is responsible for mainframe storage

2
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C.,
15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C.,
42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
3
  Mainframe Computer Operations Efficiency and Effectiveness Should Be Improved (Reference
Number 2003-20-117, dated May 2003) and Mid-range Computer Storage Resources Need Better Administration to
Ensure Effective and Efficient Utilization and Accurate Reporting (Reference Number 2005-20-098, dated
July 2005).
                                                                                                      Page 3
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



management. Systems software personnel install and configure mainframe disk storage devices,
while storage administrators assign storage capacity to applications and monitor and report
storage performance and usage.
Our review of the January 1, 2005, January 3, 2005, and September 12, 2005, usage reports for
the IBM - Master File and/or Unisys disk storage devices showed that, compared to the
Industry - Average and Industry - Best Practice metrics used by the Enterprise Computing Center
organization to measure performance, disk storage capacity is effectively assigned to
applications. The Industry - Average for the storage assigned as a percentage of capacity metric
is 64.5 percent, and the Industry - Best Practice is 86.1 percent. As of September 12, 2005, IRS
data:
   •   For the IBM - Master File disk storage capacity showed 85.2 percent of the
       Modernization Projects storage was assigned as a percentage of capacity.
   •   For the IBM - Master File disk storage capacity showed 79 percent of the Current
       Processing Environment storage was assigned as a percentage of capacity (see
       Appendix V).
However, assigned storage is not effectively used. The Industry - Average for the storage in use
as a percentage of capacity assigned metric is 81.8 percent, and the Industry - Best Practice is
93.7 percent. As of September 12, 2005, IRS data:
   •   For the IBM - Master File disk storage capacity
       showed 47.7 percent of the Modernization            The IRS purchased additional disk
       Projects storage was in use as a percentage of        storage capacity although only
                                                           41 percent to 69 percent of existing
       capacity assigned.                                   disk storage capacity was being
   •   For the IBM - Master File disk storage capacity      used. Procedures for monitoring
                                                          actual storage usage could improve
       showed 69.3 percent of the Current Processing         overall utilization, postpone the
       Environment storage was in use as a                purchasing of unnecessary capacity,
       percentage of capacity assigned                    and save resources for other needs.
       (see Appendix V).
   •   For the Unisys disk storage capacity showed 58.8 percent of the Martinsburg capacity
       was in use as a percentage of capacity assigned.
   •   For the Unisys disk storage capacity showed 41.2 percent of the Memphis capacity was
       in use as a percentage of capacity assigned (see Appendix VI).
Comparable disk storage capacity and usage reports for the IBM - Other systems were not
available during the review.
During FYs 2003 – 2005, the IRS spent $9,006,745 to replace older disk storage devices and to
purchase and lease 56.4 terabytes of additional disk storage capacity, including software and
maintenance. Justifications supporting the $5,500,416 spent to purchase 51.7 terabytes of new
                                                                                          Page 4
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



storage capacity for the Master File stated that additional capacity was needed to meet capacity
requirements.
Enterprise Computing Center management advised that these purchases provided significant
benefits, such as current disk storage technology that stores more data faster, reduces Computing
Center environmental costs, and eliminates the maintenance costs on the existing storage. In
addition, the increased storage capacity was paid for with the maintenance cost savings, and
management advised limiting the storage purchases to the existing capacity would not have been
cost effective. Additional and planned IBM - Master File disk storage purchases or leases
include:
   •   In August 2005, 40.2 terabytes of disk storage were purchased for $1,200,000, including
       19.2 terabytes of replacement disk and optical storage and 21 terabytes of additional disk
       storage capacity. We prorated the total cost and estimate the additional disk storage
       capacity cost $626,866. The justification for this purchase identified $369,451 annual
       maintenance costs; therefore, we estimate the $1,200,000 purchase cost would be repaid
       in 39 months. However, the additional disk storage capacity purchase may not have been
       necessary because, as of September 12, 2005, only 69.3 percent of the 53.5 terabytes of
       Current Processing Environment-assigned disk storage capacity was used and
       14.2 terabytes were being held in reserve.
   •   In FY 2006, IRS management plans to lease 69.9 – 116.5 terabytes of disk storage for
       4 – 5 years that will cost $560,400 – $1,000,560 per year, including 31.5 terabytes of
       replacement disk storage and 38.4 – 85 terabytes of additional disk storage capacity. As
       of the end of our audit work, the capacity and cost details had not been completed.
       Therefore, we prorated the total lease costs (annual cost times lease period) and estimate
       the additional disk storage capacity will cost $1,423,140 – $3,144,927. However, the
       lease may not be necessary because, as of September 12, 2005, only 47.7 percent of the
       51.8 terabytes of Modernization-assigned disk storage capacity was used and 9 terabytes
       were being held in reserve.
Management did not provide documentation of alternate proposals that would have provided the
maintenance, performance, and Computing Center environmental cost benefits without
increasing disk storage capacity. Therefore, based on the storage usage rate, the $626,866 spent
to purchase 21 terabytes of additional disk storage in August 2005 represents an inefficient use
of resources, and the $1,423,140 planned expense to lease 38.4 terabytes of additional disk
storage beginning in FY 2006 represents funds that could be put to better use (see Appendix IV).
In our opinion, additional storage capacity continues to be purchased based on storage allocation
instead of actual usage, as evidenced by the fact that actual storage usage information is not
included in storage purchase justifications. For example, the purchase of 12 terabytes for the
IBM - Master File Current Processing Environment was approved March 22, 2005. The
justification stated the purchase was needed because “. . . in 2004 [the Master File] will

                                                                                           Page 5
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



experience a 20 percent growth in all of its established workloads . . .” and was “. . . currently
experiencing [disk storage] resource shortages and . . . space reserves are at all time low levels.”
As of January 1, 2005, the IBM - Master File usage report indicated 2.2 terabytes of the total
58.5 terabytes of capacity assigned to the Current Processing Environment was reserved for
growth, while 69.4 percent of the assigned Current Processing Environment capacity was in use.
By September 12, 2005, the reserve had increased to 14.2 terabytes, while usage decreased to
69.3 percent.
Purchases of disk storage capacity also continue because Enterprise Operations organization
management has viewed disk storage capacity as owned by the projects and allows project
owners to determine how the storage capacity is to be allocated (e.g., development, test, or
production assignments) and how long the data will remain on the disks. Enterprise Operations
organization management advised that the Information Technology Investment Account funds
the purchase of disk storage for Modernization projects and limits the Enterprise Computing
Center’s authority to effectively manage the IBM - Master File disk storage. However,
Enterprise Operations organization management’s authority to manage storage used in everyday
tax processing and administration and maintained with the Enterprise Computing Center
operations’ budget is not clear. For example, in Appendix V, the usage reports showed that
34.5 terabytes of the IBM - Master File disk storage capacity was assigned to Modernization
production (i.e., applications developed by the Business Systems Modernization Program that are
in everyday use by IRS employees and customers). Maintenance on the disk storage that the
Modernization production applications use is funded by the Enterprise Operations organization
budget, not Information Technology Investment Account funds. In addition, the disk storage that
will be replaced during FY 2006 was purchased with Information Technology Investment
Account funds, yet the Enterprise Computing Center operating funds used to maintain the
existing storage will be used to replace it. IRS management has not yet determined at what point
Information Technology Investment Account-purchased computer assets used in day-to-day
operations and maintained with operations funds will be managed as part of the Current
Processing Environment.
In addition, disk storage usage information is not regularly shared with the project owners, and
Enterprise Computing Center management has been unsuccessful in obtaining approvals from
project owners that would allow more effective management of storage capacity. For example:
   •   An August 2005 usage analysis of 1 Modernization project’s disk storage showed that, of
       the 9.9 terabytes of disk capacity, 6.8 terabytes (68.7 percent) were not used, including
       4.7 terabytes that were not allocated and 2.1 terabytes that were idle (i.e., allocated
       storage that did not contain data). An email message indicated the analysis was sent to
       the project through a liaison because there was no single individual responsible for the
       disk storage. In December 2005, Enterprise Computing Center management advised the
       Modernization project planned to retain the disk storage for future use.


                                                                                              Page 6
                       Improvements in Mainframe Computer Storage Management
                      Practices and Reporting Are Needed to Promote Effective and
                                 Efficient Utilization of Disk Resources



      •    Management advised that a Modernization project cancelled in early 2005 owned about
           39 terabytes of disk capacity. A disk storage usage management report dated
           September 12, 2005, showed 33 terabytes were still assigned to this project, including
           15.2 terabytes that were in use. Enterprise Computing Center management explained that
           the In Use capacity still contained data and their requests to the project owner for
           instructions on whether to archive or delete the data had received no response. While
           MITS organization management has designated the future assignments of the capacity,
           the capacity cannot be reassigned until the data are removed.
The above conditions indicate the Enterprise Operations organization has not yet achieved its
goal of managing the disk storage capacity as a corporate asset because storage administrators
are not allowed to reassign unused or underused disk capacity to applications that need additional
capacity. Procedures for managing the disk storage as a corporate asset and monitoring actual
storage usage could improve overall utilization, postpone the purchasing of unnecessary
capacity, and save resources for other needs.

Recommendations
Recommendation 1: The CIO should ensure the Enterprise Operations organization develops
and implements standardized procedures to operate and manage disk storage capacity as a
corporate asset, including disk storage capacity purchased with Information Technology
Investment Account funds and used in production, and ensures the procedures give storage
administrators the authority to increase or decrease the capacity assigned to applications based
on storage usage to improve utilization.
           Management’s Response: IRS management agreed with the recommendation. The
           Enterprise Operations organization has developed and implemented standardized
           procedures to operate and manage disk storage capacity as a corporate asset in the Master
           File Legacy4 and Modernization environments and has initiated plans and assigned staff
           to standardize procedures for the remaining mainframe systems. All disk storage
           capacity purchased with Information Technology Investment Account funds is being
           reviewed from a corporate perspective for the most efficient utilization of resources.
Recommendation 2: The CIO should ensure Enterprise Computing Center management’s
and project owners’ justifications for disk storage purchases include storage usage information
that shows the need for additional capacity, to prevent spending on unneeded disk storage.




4
    Information systems and technology using older generation design approaches and technology.
                                                                                                  Page 7
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



       Management’s Response: IRS management agreed with the recommendation. The
       Enterprise Operations organization will amend the storage request process to include a
       capacity analysis to prevent spending on unneeded disk storage. The updated process
       will be communicated to customers to ensure justifications adequately address the
       business need for additional capacity.
       Office of Audit Comment: IRS management disagreed with the outcome measures
       included in Appendix IV and stated we did not include in our calculations all cost-related
       factors, such as maintenance and/or environmental factors including power and air
       conditioning. We discussed the cost savings and the methodology for calculating the
       savings with IRS management and revised the audit report based on management’s
       comments.
       In calculating the first outcome measure, we considered the maintenance cost savings for
       the replaced storage in our calculation of the cost of the replacement storage. We revised
       Appendix IV to show the consideration of the maintenance cost savings. We claimed the
       cost of the additional storage as an inefficient use of resources because, as of
       September 12, 2005, only 69.3 percent of the 53.5 terabytes of Current Processing
       Environment-assigned disk storage capacity was used and 14.2 terabytes were being held
       in reserve. Because much of the existing storage was not being used, the purchase of
       additional disk storage may have not been necessary.
       In calculating the second outcome measure, we based the cost of the planned additional
       storage capacity on the information provided to us during the audit. We were provided
       with a cost of $2,590,560 for acquiring future disk storage and calculated $1,423,140 as
       the cost of additional storage capacity. Similar to the calculation for the first outcome
       measure, the maintenance cost savings from the replaced storage lowered the cost of the
       replacement storage. As of the end of our audit work, the capacity and cost details for the
       storage purchase had not been completed. In addition, no costing information was
       provided to us for the environmental factors such as power and air conditioning
       mentioned in management’s comment.

Management Actions Are Needed to Improve Disk Storage Utilization
for Mainframe Computers
Office of Management and Budget Circular A-130, Management of Federal Information
Resources, dated November 28, 2000, requires the CIO to ensure the implementation and
enforcement of applicable records management policies and procedures, including requirements
for archiving information maintained in electronic format, particularly in the planning, design,
and operation of information systems. In addition, the Internal Revenue Manual states the CIO
and the MITS organization have the responsibility for evaluating and monitoring data
administration.

                                                                                           Page 8
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



One of the benefits anticipated from the Competency Based Organization for the Enterprise
Computing Center organization was increased effectiveness and efficiency through
standardization of policies, practices, and procedures across the three Computing Centers.
However, we identified three issues that hinder the effective and efficient utilization of disk
storage capacity for mainframe computers:
   •   Disk data retention procedures for removing unused data are not standardized and
       consistently implemented.
   •   File transfer procedures require duplicate disk storage capacity.
   •   Disk storage management information is not consistent and complete.

Disk data retention procedures for removing unused data are not standardized
and consistently implemented
Data management best practices indicate data have a life cycle and are not permanent.
Therefore, an organization should determine how important the data are to its business customers
(i.e., availability and access frequency) and establish procedures to move data that do not require
immediate access from online disk storage to near-line or offline storage. The Enterprise
Computing Center has implemented procedures to move unused data from disk to tape storage,
but the procedures are not standardized and could be improved.
The Systems Standards Manual, which was developed for Master File system users, lists factors
to consider in determining if and how long data should reside on disk and includes procedures to
automate disk management (e.g., establishing expiration dates for data files). However,
comparable reference manuals for other IBM and Unisys system users do not exist. Our analysis
of 18 judgmentally selected applications that run on the IBM - Master File (6 applications),
IBM - Other (5 applications), and Unisys (7 applications) systems showed inconsistencies in data
retention practices for the same file types (see Appendix I for a list of the sampled applications).
Our review of 11 IBM - Master File and IBM - Other applications showed:
   •   Stored data files for four IBM - Master File applications contained expiration dates that
       the storage management software uses to determine whether data should be removed
       from the disk.
   •   Stored data files for four IBM - Other applications did not contain expiration dates, which
       prevents the storage management software from automating the process for removing
       unused data from the disk.
   •   Stored data files for two IBM - Master File and one IBM - Other database applications
       were not required to contain expiration dates.



                                                                                              Page 9
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



While the Systems Standards Manual procedures for establishing expiration dates on data files
do not apply to the other IBM systems, the storage management software is the same; therefore,
storage administrators could follow similar procedures to improve storage management.
Procedures followed by Unisys system storage administrators and application developers were
also not standardized. The applications running on the Unisys mainframe computers include
batch processes and, as a result, receive and process data in cycles (e.g., daily, weekly, monthly)
that the Computing Centers are storing on disk. The storage administrators manage the disk
storage by the number of cycles kept on disk for each file. The Martinsburg and Memphis
storage administrators followed different procedures for moving data from disk storage. At
Martinsburg, data are moved from disk to tape if not accessed within 45 days, while at Memphis
the data are moved after 30 days.
In addition, application developers can set the maximum number of cycles that will be stored on
disk for each file before the earliest cycle is removed to tape, with 32 cycles being the default
setting. Our review of the stored data files for seven Unisys applications indicated efficient disk
storage usage might be hampered by the number of cycles retained on disk. For example:
   •   For the 7 applications, we identified 8,863 files with the default 32-cycle setting.
   •   Of the 8,863 files, 69 had 32 cycles of data stored on disk (a total of 2,208 cycles of data,
       which was 6 percent of the total 36,578 cycles of data stored on disk).
   •   For the 69 files, disk storage contained 800 cycles of data for 25 Electronic Funds
       Transfer files and 704 cycles of data for 22 Electronic Filing System files. The
       Electronic Funds Transfer and Electronic Filing System are batch applications running on
       the Unisys systems and create a daily cycle(s) of data that is processed into the weekly
       Master File batch processes. Further, Electronic Filing System processing has multiple
       output files, including acknowledgements to tax preparers and data extracts to other tax
       processing systems. Therefore, we believe storing data on disk after the cycles are
       processed is an inefficient use of disk storage.
The Systems Standards Manual requires application owners to review database and file access
activity to ensure databases do not remain on disk past their intended life cycles. However, the
procedure may not be effective. After we requested file retention data, application owners stated
1 Master File application had obsolete files and the programmers deleted 90 (63 percent) of the
144 database files listed for this application.

File transfer procedures require duplicate disk storage capacity
Data files transferred from other systems must be stored initially on disk for additional
processing, tax account research, or other use and archived to tape storage when no longer



                                                                                              Page 10
                     Improvements in Mainframe Computer Storage Management
                    Practices and Reporting Are Needed to Promote Effective and
                               Efficient Utilization of Disk Resources



needed for immediate access. Our review of file transfer logs maintained for 2-week periods in
mid-20055 identified the following:
    •    The file transfer logs listed 77,044 transfers for 27,127 file names.
    •    The total size of the 77,044 transfers was 713.7 gigabytes, which represents the capacity
         needed if all the files are retained for at least 2 weeks.
The data reviewed did not identify how long these files would remain on disk; however, the
results indicate the disk capacity used could be substantial if unused files are retained on disk.
Data retention rules have not been standardized because, prior to the IRS’ October 2005
restructuring to a Competency Based Organization, the three Computing Centers operated
independently and the procedures were not updated during the restructuring. However, without
effectively implemented standardized data retention procedures and application developers
effectively setting data retention parameters based on an application’s processing cycles, excess
copies of data files and databases will remain on disk storage, resulting in the inefficient use of
mainframe disk storage resources.
As a long-term solution to this problem, the IRS’ target Enterprise Architecture requires
computer data storage to be centrally managed through a concept called storage virtualization,
where multiple network storage devices are consolidated into what appears to be a single storage
unit (i.e., a virtual storage pool). Virtualization should result in the optimal placement of files to
achieve the highest performance and availability. However, the IRS’ mainframe disk storage
devices are currently connected to specific mainframe computer systems (e.g., the IBM - Master
File, IBM - Other, or Unisys system) and are used by only that system. Consequently, files
created and stored on one system must be transferred to another system for additional processing,
tax account research, or other use. As a result, storage capacity must be provided on both the
originating storage device and the receiving storage device to store the duplicate copies of the
file. By implementing storage virtualization and reducing the need to transfer files between
systems, the IRS could save resources by eliminating the creation of duplicate files.
The Associate CIO, Enterprise Operations, advised virtualization is something the IRS wants to
implement and she has tried for several years to obtain funding for a virtual tape solution to
resolve disaster recovery issues. However, funding is not available and virtualization across
systems cannot be implemented.
We understand the difficulties in obtaining the necessary funds to implement various information
technology initiatives and, therefore, are making no recommendations to address this issue.



5
  The review included file transfer log data for June 26, 2005, through July 9, 2005, except for File Transfer Protocol
data received for the Detroit IBM systems reviewed for the period July 31, 2005, through August 13, 2005
(see Appendix I).
                                                                                                             Page 11
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



However, if the IRS had a business case documenting the potential return on investment that
could be realized from the implementation of virtualization, funding support might be justified.

Disk storage management information is not consistent and complete
Prior to the recent reorganization, the Capacity Management Branch was responsible for the
application of capacity planning and performance management tools, techniques, and analytical
methods to improve the efficiency and productivity of existing and planned computer systems
and applications. Effective October 2005, the Enterprise Operations organization’s Information
Technology Infrastructure Division has these responsibilities. The Capacity Management
Branch published annual capacity assessment reports for each of the mainframe computer
systems. However, the Branch did not complete assessments for the IBM - Master File and
IBM - Other (Administrative) systems in FY 2005 because Capacity Management Branch staff
that left the organization were not being replaced, resulting in insufficient staff to complete the
assessments. The Associate CIO, Enterprise Operations, advised that the Capacity Management
Branch staff positions were not filled because the duties and responsibilities of those positions
were moved to the Enterprise Operations organization’s Information Technology Infrastructure
Division effective October 2005 as part of the implementation of the Competency Based
Organization. As of December 14, 2005, only two staff positions remained to be filled.
The published capacity reports for the other IBM systems and the Unisys systems included
high-level disk storage capacity and assignment charts and future capacity requirements based on
the assignments. However, the assessments did not analyze disk storage usage and based future
capacity requirements on the historic usage trends. Although disk storage usage data are
collected by the Computing Centers, a Capacity Management Branch manager explained that
usage was not assessed because IRS management had given greater priority to assessing
computer processor needs because processor costs are significantly more expensive than storage
costs and storage costs have historically declined.
We also found inconsistencies in Enterprise Computing Center disk storage usage report
frequencies, measurement units, and terminologies that have not been reconciled to provide a
corporate view of disk storage usage. Figure 3 illustrates the inconsistencies among selected
reports.




                                                                                            Page 12
                   Improvements in Mainframe Computer Storage Management
                  Practices and Reporting Are Needed to Promote Effective and
                             Efficient Utilization of Disk Resources



                 Figure 3: Inconsistencies Among Management Reports
                               IBM - Master File           IBM - Administrative                  Unisys
 Report Frequency       Daily                             Monthly                      Weekly
 Measurement Unit       Byte                              Byte                         Track
                        Project (e.g., Production, Test   Group (e.g., Production,     Production,
                        Groups, Non-Assigned)             Development, Available)      Non-Production
 Capacity and Usage
 Categorized By         Subgroup                          Application                  Pool (storage groups
                        (e.g., Modernization projects,                                 (e.g., applications))
                        applications)
                        Assigned (i.e., disk space        Disk Space (i.e., assigned   Allocated (i.e., assigned
                        allocated to each Subgroup)       to each application)         to pools)
                        In Use (i.e., database and file   Space Used (i.e., database   In Use (i.e., tracks
 Capacity and Usage     sizes defined)                    and file sizes defined)      containing data)
 Measured By
                        Available (i.e., not “In Use”)    Free Space (i.e., assigned   Available (i.e., tracks not
                                                          space not used)              “In Use”)
                        Percentage In Use (i.e., “In
                        Use” divided by “Assigned”)
Source: Enterprise Operations organization management.

In addition, usage reports for the Memphis disk storage devices attached to other IBM
mainframe computer systems were manually prepared, while those for the other systems were
automated. A Memphis manager stated that personnel worked part time over a 2-week period to
manually prepare a report given to us in September 2005 because management had not identified
a need for the usage information. Enterprise Computing Center management has not
standardized the disk storage usage reports because, prior to implementation of the Competency
Based Organization, the systems were operated independently.
The incomplete, untimely, and inconsistent disk storage usage and capacity planning reports
resulted in MITS organization management not having corporate disk usage information to
monitor and ensure the resources were used effectively.

Recommendations
Recommendation 3: The CIO should ensure the Enterprise Operations organization develops
and implements standardized data retention procedures requiring unused copies of files and
database records to be removed from disk storage, to improve mainframe computer disk storage
efficiency.




                                                                                                              Page 13
                    Improvements in Mainframe Computer Storage Management
                   Practices and Reporting Are Needed to Promote Effective and
                              Efficient Utilization of Disk Resources



        Management’s Response: IRS management agreed with this recommendation. The
        Enterprise Operations organization uses standardized data retention procedures for
        Master File Legacy and Modernization systems and will implement this process on the
        other mainframe systems.
Recommendation 4: The CIO should ensure the Business Systems Development
organization effectively sets application data retention parameters based on an application’s
processing cycles, to improve mainframe computer disk storage efficiency.
        Management’s Response: IRS management agreed with this recommendation. The
        Enterprise Operations organization will implement a process to generate reports across all
        mainframe systems including project data retention and usage information. These reports
        will be analyzed quarterly with the Applications Development organization.6
        Based upon customer data retention and retrieval requirements and application processing
        timeframes, the Applications Development organization will confirm the correctness of
        current retention periods or provide new retention periods. If the reports show significant
        amounts of dedicated storage that remain unused by a project, the Applications
        Development organization will review the project’s needs and revalidate the future need
        or release appropriate amounts of storage for use by other projects. The Enterprise
        Operations organization will then take all necessary actions to release unneeded disk
        storage.
Recommendation 5: The CIO should ensure the Enterprise Operations organization conducts
annual capacity planning assessments (and the assessments measure disk storage usage) that
provides MITS organization management objective information for disk storage investment
planning.
        Management’s Response: IRS management agreed with this recommendation. The
        Enterprise Operations organization will conduct annual capacity planning assessments for
        all mainframe systems. The assessments will be based on standardized disk storage
        reports that indicate the amount of storage allocated to and actually used by applications.
        These reports will be used for disk storage investment planning.
Recommendation 6: The CIO should ensure the Enterprise Operations organization disk
storage reports are standardized and indicate the amount of storage allocated to and actually used
by applications and the reports are shared with MITS organization management and project
owners to ensure complete, consistent, and corporate-level storage capacity usage reporting and
management.



6
 The Business Systems Development and the Business Systems Modernization organizations are being merged to
create a new Applications Development organization.
                                                                                                   Page 14
          Improvements in Mainframe Computer Storage Management
         Practices and Reporting Are Needed to Promote Effective and
                    Efficient Utilization of Disk Resources



Management’s Response: IRS management agreed with this recommendation. The
Enterprise Operations organization will standardize disk storage reports across all
corporate assets to indicate the amount of storage allocated to and actually used by
applications. The Enterprise Operations organization will share the reports with MITS
organization management and project owners to ensure complete, consistent, and
corporate-level storage capacity usage reporting and management. The reports will be
rolled up annually for a yearly assessment.




                                                                              Page 15
                       Improvements in Mainframe Computer Storage Management
                      Practices and Reporting Are Needed to Promote Effective and
                                 Efficient Utilization of Disk Resources



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness and efficiency of the Internal
Revenue Service’s (IRS) mainframe1 computer storage management practices. To accomplish
this objective, we:
I.         Determined whether mainframe computer storage management information (such as
           capacity, usage, and growth projections) was accurate, complete, consistent, and timely.
           A. Reviewed Federal Government and IRS guidelines to identify storage management
              information reporting requirements.
           B. Interviewed Enterprise Computing Center storage administrators and reviewed Fiscal
              Year (FY) 2005 capacity, usage, and growth reports to determine whether the
              Computing Centers report accurate, complete, consistent, and timely storage
              management information.
           C. Determined the effect that inaccurate, incomplete, inconsistent, or untimely storage
              management information reports had on management decisions.
II.        Determined whether mainframe storage management resources were allocated and
           operated effectively.
           A. Reviewed IRS guidelines to identify storage management procedures and standards.
           B. Interviewed Enterprise Computing Center managers and storage administrators and
              reviewed storage usage reports generated in FY 2005 to determine how storage was
              allocated and operated.
           C. Reviewed documents for storage capacity purchased in FYs 2003 – 2005 and
              requested for FYs 2006 – 2007 to determine the effect of ineffective storage
              allocations and operations.
III.       Determined whether mainframe storage management resources were used efficiently.
           A. Reviewed IRS storage management guidelines to identify file retention, migration,
              and transfer procedures.
           B. Interviewed Enterprise Computing Center managers and storage administrators and
              reviewed sampled file data to determine whether unused data were removed from


1
    See Appendix VII for a Glossary of Terms.
                                                                                             Page 16
                        Improvements in Mainframe Computer Storage Management
                       Practices and Reporting Are Needed to Promote Effective and
                                  Efficient Utilization of Disk Resources



                disk storage. We reviewed the IRS’ As-Built Architecture to select a judgmental
                sample of 18 mainframe computer applications running on the International Business
                Machines (IBM) and Unisys mainframe computers at the 3 Computing Centers. We
                selected a judgmental sample because we did not plan to project the results and based
                the sample on our knowledge of tax return and payment processing, tax account
                administration, and financial accounting and reporting. The 18 applications selected
                were:
                IBM - Master File:
                1) Business Master File On-Line Processing.
                2) Business Master File Returns Transaction File Processing.
                3) Customer Account Data Engine - Individual.
                4) Individual Master File On-Line.
                5) Individual Master File Returns Transaction File.
                6) National Account Profile.
                IBM - Other:
                7) Automated Collection System.
                8) Automated Financial System.
                9) Currency and Banking Query System.
                10) Integrated Collection System.
                11) Security and Communications System.
                Unisys:
                12) Daily Taxpayer Information File Update.
                13) Electronic Filing System.
                14) Electronic Funds Transfer.
                15) Error Resolution System.
                16) Generalized Mainline Framework.
                17) Generalized Unpostable Framework.
                18) Weekly Taxpayer Information File Update.
                For each of the 18 applications, we identified the stored file names and reviewed data
                extracts listing each file’s disk storage retention and migration parameters to
                determine whether copies of the files were removed when no longer used.
           C. Interviewed Enterprise Computing Center storage administrators to identify file
              transfer procedures and reviewed sample file transfer data to determine whether disk
              storage was used efficiently. We reviewed data extracts for the two primary file
              transfer processes (File Transfer Protocol2 and CONNECT:Direct®3) used in the IRS’


2
    File Transfer Protocol is a specification designed to facilitate electronic data transfer between computers.
3
    CONNECT:Direct® is secure file transfer software published by Sterling Commerce.
                                                                                                                   Page 17
                     Improvements in Mainframe Computer Storage Management
                    Practices and Reporting Are Needed to Promote Effective and
                               Efficient Utilization of Disk Resources



             mainframe computing environment. The data extracts included the file name, size,
             and date and the originating and retrieving systems for files transferred by the
             3 Computing Centers in the 2 weeks of June 26, 2005, through July 9, 2005.4
IV.      Determined the validity and reliability of data from computer-based systems. We used
         computer-based data for background information to determine the amount spent and
         planned to be spent on replacement and additional disk storage capacity and to assess
         data retention and file transfer procedures. We reviewed documentation supporting the
         disk storage purchases. We also assessed the completeness and accuracy of the data
         relating to data retention and file transfers and compared file transfer data obtained from
         different computer systems to determine the data’s reliability as they pertain to the
         objectives of the audit.




4
  The exception to this period was for File Transfer Protocol transfers at one Computing Center that did not generate
log data during the review period. This Computing Center captured and we reviewed data for July 31, 2005,
through August 13, 2005.
                                                                                                            Page 18
                 Improvements in Mainframe Computer Storage Management
                Practices and Reporting Are Needed to Promote Effective and
                           Efficient Utilization of Disk Resources



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Van Warmke, Acting Audit Manager
Frank Greene, Lead Auditor
Mark Carder, Senior Auditor
Beverly Tamanaha, Senior Auditor
Kim McManis, Auditor
Robert Carpenter, Information Technology Specialist
Judith Harrald, Information Technology Specialist




                                                                                     Page 19
                Improvements in Mainframe Computer Storage Management
               Practices and Reporting Are Needed to Promote Effective and
                          Efficient Utilization of Disk Resources



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Associate Chief Information Officer, Business Systems Development OS:CIO:BSD
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Director, Stakeholder Management OS:CIO:SM
Director, Enterprise Computing Center OS:CIO:EO:EC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                               Page 20
                       Improvements in Mainframe Computer Storage Management
                      Practices and Reporting Are Needed to Promote Effective and
                                 Efficient Utilization of Disk Resources



                                                                                    Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•     Inefficient Use of Resources – Actual; $626,866 (see page 3).

Methodology Used to Measure the Reported Benefit:

In August 2005, the Internal Revenue Service (IRS) spent $1,200,000 to purchase 40.2 terabytes1
of new disk storage capacity for the International Business Machines (IBM) - Master File
system, including software and maintenance. The storage was purchased to add additional
storage and to replace existing storage. The cost per terabyte of the additional and replacement
storage was calculated as follows:
      •    Cost of new storage – 40.2 terabytes purchased for $1,200,000 (average cost of
           $29,850.75 per terabyte).
      •    Cost of additional storage (21 terabytes multiplied by $29,850.75 per terabyte =
           $626,866).
      •    Cost of replacement storage (19.2 terabytes multiplied by $29,850.75 per terabyte =
           $573,134) ($573,134 minus maintenance cost for replaced storage $322,491 = $250,643).
However, the purchase of the additional storage may not have been necessary because, as of
September 12, 2005, only 69.3 percent of the 53.5 terabytes of Current Processing
Environment-assigned disk storage capacity was used and 14.2 terabytes were being held in
reserve.




1
    See Appendix VII for a Glossary of Terms.
                                                                                              Page 21
                   Improvements in Mainframe Computer Storage Management
                  Practices and Reporting Are Needed to Promote Effective and
                             Efficient Utilization of Disk Resources



Type and Value of Outcome Measure:

•   Funds to Be Put to Better Use – Potential; $1,423,140 (see page 3).

Methodology Used to Measure the Reported Benefit:

Starting in Fiscal Year 2006 and continuing 4 years, the IRS plans to spend at least $1,423,140 to
lease 38.4 terabytes or more of additional disk storage capacity. Figure 1 shows the
methodology used to determine the cost of the additional storage.
                 Figure 1: Cost of Planned Additional Storage Capacity
Funded Amount for Disk Storage                                                        $2,590,560
Planned Leased Storage Capacity                                                     69.9 terabytes
Cost per Terabyte ($2,590,560 divided by 69.9 terabytes)                              $37,060.94
Planned Replacement Capacity                                                        31.5 terabytes
Planned Additional Capacity                                                         38.4 terabytes
Cost of Additional Capacity                                                           $1,423,140
($37,060.94 multiplied by 38.4 terabytes)
Source: Enterprise Operations organization management.

The maintenance cost savings of $288,000 from the replaced storage lowered the cost of the
replacement storage. As of the end of our audit work, the capacity and cost details had not been
completed. However, the lease may not be necessary because, as of September 12, 2005, only
47.7 percent of the 51.8 terabytes of Modernization-assigned disk storage capacity was used and
9 terabytes were being held in reserve.




                                                                                          Page 22
                      Improvements in Mainframe Computer Storage Management
                     Practices and Reporting Are Needed to Promote Effective and
                                Efficient Utilization of Disk Resources



                                                                                                 Appendix V

     International Business Machines - Master File Disk
      Storage Capacity Assignment and Usage Metrics

                                      January 1, 2005                         September 12, 2005
                           Capacity               2   In Use As a   Capacity                   In Use As a
                                           In Use                                    In Use
                           Assigned                   Percentage    Assigned                   Percentage
         Projects                            (in                                       (in
                              (in                     of Capacity      (in                     of Capacity
                                         terabytes)                                terabytes)
                          terabytes1)                  Assigned    terabytes)                   Assigned3
                            Internal Revenue Service (IRS) Modernization Projects
    Production                   37.0          17.3       46.8%            34.5          16.2      47.1%
    Other (Temporary,
                                 12.2           6.8          55.7%              17.3           8.5         49.2%
    System, Test, etc.)
    Totals                       49.2          24.1          49.0%              51.8          24.7         47.7%
    Reserve                       7.0                                            9.0
    Totals                       56.2                                           60.8
                           Assigned
                                                                       Assigned As
                             As a        In Use As a Percentage of                       In Use As a Percentage
                                                                       a Percentage
                          Percentage        Capacity Assigned                             of Capacity Assigned
                                                                       of Capacity
                          of Capacity
 Modernization
                         87.5%                  49.0%                 85.2%                 47.7%
 Projects
 Industry - Average      64.5%                  81.8%                 64.5%                 81.8%
 Industry - Best
                         86.1%                  93.7%                 86.1%                 93.7%
 Practice
Source: Enterprise Computing Center Project Allocated Space Tracking Analyzer reports and Master File Metrics
report.




1
  See Appendix VII for a Glossary of Terms.
2
  For purposes of the disk storage reports, “in use” means the assigned maximum database and file sizes.
3
  The percentages reflected in the table may not exactly equal the result from dividing the two numbers because the
numbers in the table are rounded.
                                                                                                           Page 23
                      Improvements in Mainframe Computer Storage Management
                     Practices and Reporting Are Needed to Promote Effective and
                                Efficient Utilization of Disk Resources



     International Business Machines - Master File Disk
     Storage Capacity Assignment and Usage Metrics –
                        (Continued)

                                        January 1, 2005                        September 12, 2005
                           Capacity                  In Use  As a    Capacity                   In Use As a
                                           In Use1                                    In Use
                           Assigned                   Percentage     Assigned                   Percentage
         Projects                            (in                                        (in
                              (in                    of Capacity        (in                     of Capacity
                                         terabytes)                                 terabytes)
                          terabytes)                   Assigned     terabytes)                   Assigned2
                                      IRS Current Processing Environment
    Production                   30.2          24.7       81.8%             31.9          22.5      70.6%
    Other (Temporary,
                                 26.1           14.4        55.2%              21.6          14.6         67.6%
    System, Test, etc.)
    Totals                       56.3           39.1        69.4%              53.5          37.1         69.3%
    Reserve                       2.2                                          14.2
    Totals                       58.5                                          67.7
                           Assigned
                                                                      Assigned As
                             As a         In Use As a Percentage of                     In Use As a Percentage
                                                                      a Percentage
                          Percentage         Capacity Assigned                           of Capacity Assigned
                                                                      of Capacity
                          of Capacity
 Current Processing
                         96.2%                  69.4%                 79.0%                 69.3%
 Environment
 Industry - Average      64.5%                  81.8%                 64.5%                 81.8%
 Industry - Best
                         86.1%                  93.7%                 86.1%                 93.7%
 Practice
 Total Capacity              114.7                                        128.5
Source: Enterprise Computing Center Project Allocated Space Tracking Analyzer reports and Master File Metrics
report.




1
 For purposes of the disk storage reports, “in use” means the assigned maximum database and file sizes.
2
 The percentages reflected in the table may not exactly equal the result from dividing the two numbers because the
numbers in the table are rounded.
                                                                                                          Page 24
                       Improvements in Mainframe Computer Storage Management
                      Practices and Reporting Are Needed to Promote Effective and
                                 Efficient Utilization of Disk Resources



                                                                                                  Appendix VI

          Unisys Disk Storage Capacity Assignment and
                         Usage Metrics

                                         January 3, 2005                           September 12, 2005
                             Capacity                    In Use As a                                 In Use As a
                                              In Use1                      Capacity      In Use
                             Assigned                    Percentage                                  Percentage
                                                (in                        Assigned        (in
                                (in                      of Capacity                                of Capacity
                                            terabytes)                  (in terabytes) terabytes)
                            terabytes)                     Assigned                                   Assigned
                                                       Martinsburg
    Production                       1.8            0.9        50.0%               1.7            1.0         58.8%
    Reserve                          0.4                                           0.5
    Total Capacity                   2.2                                           2.2
                           Assigned As                                  Assigned As
                                             In Use As a Percentage                      In Use As a Percentage of
                           a Percentage                                 a Percentage
                                              of Capacity Assigned                          Capacity Assigned
                           of Capacity                                  of Capacity
    Martinsburg               81.8%                  50.0%                  77.3%                   58.8%
                                                       Memphis
    Production                       1.7           0.7      41.2%                  1.7            0.7         41.2%
    Reserve                          0.0                                           0.0
    Total Capacity                   1.7                                           1.7
                           Assigned As                                  Assigned As
                                             In Use As a Percentage                      In Use As a Percentage of
                           a Percentage                                 a Percentage
                                              of Capacity Assigned                          Capacity Assigned
                           of Capacity                                  of Capacity
    Memphis                    100%                  41.2%                  100%                   41.2%
    Industry - Average        64.5%                  81.8%                 64.5%                   81.8%
    Industry - Best
                              86.1%                  93.7%                  86.1%                  93.7%
    Practice
                                Martinsburg and Memphis - Development and Test
    Development and
                                   2.3          1.2       52.2%             2.2                   1.2         54.5%
    Test
    In Use As a Percentage of Capacity Assigned
    Industry - Average                                    81.8%                                               81.8%
    Industry - Best Practice                              93.7%                                               93.7%

 Total Capacity               6.2                                        6.1
Source: Capacity Management Branch Mass Storage Reports and Enterprise Computing Center Metrics report.


1
    For purposes of the disk storage reports, “in use” means the assigned maximum database and file sizes.
                                                                                                             Page 25
                  Improvements in Mainframe Computer Storage Management
                 Practices and Reporting Are Needed to Promote Effective and
                            Efficient Utilization of Disk Resources



                                                                          Appendix VII

                             Glossary of Terms

Administrative                      The Administrative systems include human resources,
                                    financial reporting, currency transaction reporting, and
                                    other applications.
As-Built Architecture               The As-Built Architecture presents an enterprise view
                                    of the Internal Revenue Service’s (IRS) Information
                                    Technology and Business environments and is an
                                    integral part of the IRS’ Enterprise Architecture.
Byte                                A byte is one data character.
Campus                              The IRS campuses are the data processing arm of the
                                    IRS.
Computing Center                    The Computing Centers support tax processing and
                                    information management through a data processing
                                    and telecommunications infrastructure.
Enterprise Architecture             The Enterprise Architecture defines the target business
                                    practices, the systems that enable these practices, and
                                    the technology that will support it.
Enterprise Computing Center (ECC)   The ECC is responsible for maintaining and operating
                                    the enterprise information technology systems which
                                    support the nation’s tax administration. The ECC is
                                    organized to operate under the “corporate utility”
                                    concept (i.e., one organization with a uniform
                                    operating environment which employs standard
                                    policies, practices, and procedures to manage three
                                    physical computing centers).
Gigabyte                            One gigabyte equals approximately 1 billion bytes or
                                    500,000 typewritten pages.
Integrated Collection System,       The Integrated Collection System, Automated
Automated Collection System,        Collection System, and Printer Replacement to
Printer Replacement to Integrate    Integrate New Tools System support the balance-due
New Tools System                    and nonfiler tax enforcement operations.


                                                                                    Page 26
                Improvements in Mainframe Computer Storage Management
               Practices and Reporting Are Needed to Promote Effective and
                          Efficient Utilization of Disk Resources




                   Glossary of Terms - Continued

Integrated Data Retrieval System    The IDRS supports the retrieval and updating of stored
(IDRS)                              information, including taxpayer account records.
International Business Machines     The IRS uses IBM mainframe computers to host
(IBM)                               Master File processing, collection processing, and
                                    other nationwide applications and data processing.
Mainframe                           A mainframe is a powerful multiuser computer
                                    capable of supporting many hundreds or thousands of
                                    users simultaneously.
Master File                         The Master File system supports the databases that
                                    store individual, business, and employee plans and
                                    exempt organizations taxpayer account information
                                    and includes Current Processing Environment
                                    applications and Modernization Projects.
Security and Communications         The Security and Communications System provides
System                              security, communications, and terminal management
                                    for the IDRS.
Service Center Replacement System   The Service Center Replacement System supports
                                    receiving, capturing, and perfecting tax payment and
                                    third-party information.
Terabyte                            One terabyte equals approximately 1 trillion bytes or
                                    500 million typewritten pages.
Track                               A track is the part of a disk that passes under one
                                    read/write head while the head is stationary. A Unisys
                                    disk storage track contains 7,168 bytes of data.
Unisys                              The IRS uses Unisys mainframe computers to host
                                    applications and specific data for the campuses.




                                                                                   Page 27
     Improvements in Mainframe Computer Storage Management
    Practices and Reporting Are Needed to Promote Effective and
               Efficient Utilization of Disk Resources



                                                   Appendix VIII

Management’s Response to the Draft Report




                                                           Page 28
 Improvements in Mainframe Computer Storage Management
Practices and Reporting Are Needed to Promote Effective and
           Efficient Utilization of Disk Resources




                                                       Page 29
 Improvements in Mainframe Computer Storage Management
Practices and Reporting Are Needed to Promote Effective and
           Efficient Utilization of Disk Resources




                                                       Page 30
 Improvements in Mainframe Computer Storage Management
Practices and Reporting Are Needed to Promote Effective and
           Efficient Utilization of Disk Resources




                                                       Page 31
 Improvements in Mainframe Computer Storage Management
Practices and Reporting Are Needed to Promote Effective and
           Efficient Utilization of Disk Resources




                                                       Page 32
 Improvements in Mainframe Computer Storage Management
Practices and Reporting Are Needed to Promote Effective and
           Efficient Utilization of Disk Resources




                                                       Page 33
